Audit Report

Office of Community Oriented Policing
Services Grants Administered by the
Navajo Nation Division of Public Safety

Report No. GR-60-05-001


October 2004
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of the grants awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented Policing Services (COPS), to the Navajo Nation, Division of Public Safety (DPS).  The purpose of the grants is to enhance community policing.  Between September 1999, and April 2004, the DPS was awarded eight grants totaling $14,476,200 to hire 84 new police officers, and provide training and equipment for new and existing officers.  However, we determined that the DPS had only drawn down funds totaling $1,759,230 for two of the eight grants and no funds had been drawn down for the remaining six grants; as a result, we based our audit on the TRGP Equipment/Training Grant Nos. 1999-HE-WX-0076 and 2000-HE-WX-0011.

Generally, for audits of COPS grants we test compliance with six essential grant conditions including budgeting for local officer positions, hiring of additional officers, local match requirements, reimbursement requests, retention of officer positions, and community policing.  However, because the DPS had only drawn down funds for two grants that provided for equipment and training, only two of the six grant conditions, local match requirements and reimbursement requests, were relevant to our audit.

We reviewed the DPS's compliance with local match requirements and reimbursement requests and found weaknesses related to requests for reimbursement.  As a result of the deficiencies identified below, we question $237,445 in grant funds received.1   Specifically, we found: 

Police vehicles were purchased that exceeded the amount per vehicle approved in the financial clearance memorandum and authorized in the COPS grant owner's manual, resulting in questioned costs of $199,880.
 
	Supporting documents could not be found for the purchase of computer equipment totaling $31,868.

	Rental/lease costs of vehicles totaling $5,697 that were not authorized in the financial clearance memorandum and specifically prohibited in the COPS grant owner's manual.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I. 



Footnotes

The Inspector General Act of 1978, as 	amended, contains our reporting requirements for questioned costs. However, not all findings are dollar-related. See Appendix III for a 	breakdown of our dollar-related findings and the definition of 	questioned costs.